0DUFK  


0DUVKD 3\OH 0DUWLQ &KDLUPDQ
 DQG &KLHI ([HFXWLYH 2IILFHU
)DUP &UHGLW $GPLQLVWUDWLRQ
0F/HDQ 9LUJLQLD

'HDU 0V 0DUWLQ

:H KDYH FRPSOHWHG RXU DXGLW RI WKH )DUP &UHGLW $GPLQLVWUDWLRQ¶V )&$ UHJXODWLRQ GHYHORSPHQW
SURFHVVHV IRU WKH SXUSRVH RI LGHQWLI\LQJ ZD\V LQ ZKLFK WKRVH SURFHVVHV FRXOG EH LPSURYHG WR
PDNH WKHP PRUH HIILFLHQW RU HIIHFWLYH 7R WKDW HQG ZH GRFXPHQWHG WKH )&$¶V FXUUHQW UHJXODWLRQ
GHYHORSPHQW SUDFWLFHV EHQFKPDUNHG WKH UHJXODWLRQ GHYHORSPHQW SUDFWLFHV RI RWKHU ILQDQFLDO
UHJXODWRUV SDUWLFXODUO\ LQ WKH XVH RI LQQRYDWLYH UXOHPDNLQJ WHFKQLTXHV DQG LQWHUYLHZHG )&$
VWDII LQYROYHG LQ WKH SURFHVV WR REWDLQ WKHLU YLHZV DERXW KRZ ZHOO WKH FXUUHQW SUDFWLFHV ZRUN DQG
WKHLU VXJJHVWLRQV IRU KRZ WKH\ PLJKW EH LPSURYHG

7KH DXGLW ZDV FRQGXFWHG LQ DFFRUGDQFH ZLWK *RYHUQPHQWDO $XGLWLQJ 6WDQGDUGV LVVXHG E\ WKH
&RPSWUROOHU *HQHUDO IRU DXGLWV RI )HGHUDO RUJDQL]DWLRQV SURJUDPV DFWLYLWLHV DQG IXQFWLRQV $Q
HQWUDQFH FRQIHUHQFH ZDV KHOG RQ 0DUFK   $ GUDIW RI WKLV UHSRUW ZDV SURYLGHG WR
PDQDJHPHQW RQ )HEUXDU\   &RUUHFWLRQV KDYH EHHQ PDGH ZKHUH DSSURSULDWH EDVHG RQ
PDQDJHPHQW¶V UHVSRQVH 6HH $SSHQGL[ 

7KH SURFHVV DQG RUJDQL]DWLRQ RI )&$ UHJXODWLRQ GHYHORSPHQW KDYH HYROYHG RYHU WKH SDVW WZR
\HDUV DV WKH $JHQF\ OHDGHUVKLS KDV DFWHG WR VWUHDPOLQH DQG EHWWHU GHILQH DUHDV RI UHVSRQVLELOLW\
IRU GHYHORSLQJ UHJXODWLRQV 7KH\ KDYH DOVR LPSURYHG FRPPXQLFDWLRQ EHWZHHQ WKH VWDII PHPEHUV
LQYROYHG LQ WKHVH DFWLYLWLHV SDUWLFXODUO\ EHWZHHQ WKRVH LQGLYLGXDOV LQYROYHG LQ WKH UHYLHZ DQG
DSSURYDO RI GUDIW UHJXODWLRQV 5HFHQW UHYLVLRQV WR SROLF\ DQG SURFHGXUHV DUH GLUHFWHG DW HDUO\
LGHQWLILFDWLRQ RI LVVXHV DQG PDQDJLQJ WKH HGLWLQJ SURFHVV )RU PRUH LQIRUPDWLRQ RQ WKH
HYROXWLRQ RI WKH UHJXODWLRQ GHYHORSPHQW GLYLVLRQ VHH $SSHQGL[ 

)&$¶V &XUUHQW 5HJXODWLRQ 'HYHORSPHQW 6WUXFWXUH DQG 3UDFWLFH

3ULPDU\ UHVSRQVLELOLW\ IRU GHYHORSLQJ )&$ UHJXODWLRQV LV DVVLJQHG WR WKH 5HJXODWLRQ DQG 3ROLF\
'LYLVLRQ 53' RI WKH 2IILFH RI 3ROLF\ DQG $QDO\VLV 23$ 3ROLF\ DQDO\VWV LQ 53' W\SLFDOO\
VHUYH DV SURMHFW PDQDJHUV IRU UHJXODWLRQ GHYHORSPHQW SURMHFWV DQG DOZD\V KDYH UHSUHVHQWDWLRQ
IURP WKH 2IILFH RI *HQHUDO &RXQVHO 2*& 2WKHU $JHQF\ VWDII PHPEHUV PD\ EH DGGHG WR WKH
SURMHFW WR SURYLGH DGGLWLRQDO VXEMHFW PDWWHU H[SHUWLVH

BBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBB
)&$¶V 5HJXODWLRQ 'HYHORSPHQW 3URFHVVHV                                             3DJH  RI 
$ 5HJXODWRU\ ([HFXWLYH *URXS 5(* UHFHLYHV SURGXFWV DQG SURYLGHV JXLGDQFH DQG GHFLVLRQV RQ
LVVXHV UDLVHG E\ D UHJXODWLRQ GHYHORSPHQW WHDP 5'7 7KH 5'7 DOVR SUHVHQWV DQDO\VHV DQG
UHFRPPHQGDWLRQV IRU SXEOLF SROLF\ SRVLWLRQV WR WKH 5(* WKDW DUH XOWLPDWHO\ FRQVLGHUHG E\ WKH
)&$ %RDUG

)&$¶V 6WUXFWXUH DQG 3UDFWLFHV %HQFKPDUNHG $JDLQVW 2WKHU )LQDQFLDO 5HJXODWRUV

:H EHQFKPDUNHG WKH UHJXODWLRQ GHYHORSPHQW VWUXFWXUHV DQG SUDFWLFHV RI WKUHH RWKHU )HGHUDO
ILQDQFLDO UHJXODWRUV WKH 1DWLRQDO &UHGLW 8QLRQ $GPLQLVWUDWLRQ 1&8$ WKH )HGHUDO 5HVHUYH
%RDUG DQG WKH )HGHUDO 'HSRVLW ,QVXUDQFH &RUSRUDWLRQ :H IRXQG WKDW

 (OHFWURQLF WHFKQRORJ\ LV LQFUHDVLQJO\ EHLQJ XVHG WR LPSURYH WKH UHJXODWLRQ GHYHORSPHQW
   SURFHVV )&$ DQG DOO WKUHH RWKHU )HGHUDO ILQDQFLDO UHJXODWRUV KDYH D KRPH SDJH DQG ZHOFRPH
   SXEOLF FRPPHQW RQ SURSRVHG DQG ILQDO UHJXODWLRQV RQ WKH ,QWHUQHW +RZHYHU QHLWKHU WKH
   )&$ QRU WKH RWKHU WKUHH DJHQFLHV SODFH SXEOLF FRPPHQWV RQ WKHLU KRPH SDJH 6HH $SSHQGL[
    IRU 1DWLRQDO 2UJDQLF 3URJUDP 3URSRVHG 5XOH +RPH 3DJH  WKH 86 'HSDUWPHQW RI
   $JULFXOWXUH¶V DWWHPSW WR FROOHFW FRPPHQWV RQ ZHE SDJH $OO XVH HOHFWURQLF PHGLD WR
   LPSURYH WKH UHYLVLRQ DQG HGLWLQJ RI GUDIW UHJXODWLRQV

 2QH RI WKH RWKHU )HGHUDO ILQDQFLDO UHJXODWRUV KDV D SROLF\ WR DFFRPPRGDWH WKH FXVWRPHU E\
   URXWLQHO\ XVLQJ SODLQ ODQJXDJH LQ UHJXODWLRQV WR SURPRWH D FOHDUHU XQGHUVWDQGLQJ DQG DOOHYLDWH
   FRQIXVLRQ 7KH\ RIWHQ XVH D TXHVWLRQ DQG DQVZHU IRUPDW LQ SUHDPEOHV DQG WR LQWURGXFH
   VHFWLRQV RI UHJXODWLRQV 6HH $SSHQGL[  IRU DQ H[DPSOH RI 1&8$¶V SODLQ ODQJXDJH
   UHJXODWLRQ )&$¶V 53' DQG 2*& DUH LQ WKH SURFHVV RI MRLQWO\ KLULQJ D FRQVXOWDQW WR WHDFK D
   FODVV RQ ZULWLQJ UHJXODWLRQV DW )&$

 7KH )&$ LV XQLTXH LQ KDYLQJ D VWDQGDORQH UHJXODWRU\ GHYHORSPHQW GLYLVLRQ 6WDIILQJ IRU
   UHJXODWLRQ GHYHORSPHQW LQ WKH RWKHU WKUHH )HGHUDO ILQDQFLDO UHJXODWRUV LV GHFLGHG DG KRF IRU
   HDFK GHYHORSPHQWDO SURMHFW 6WDII ZLWK H[SHUWLVH LQ DUHDV LPSRUWDQW WR WKH GHYHORSPHQW RI
   UHJXODWLRQV VXFK DV WKH $GPLQLVWUDWLYH 3URFHGXUHV $FW )HGHUDO 5HJLVWHU 5HJXODWRU\ %XUGHQ
   3DSHUZRUN 5HGXFWLRQV $FW RU RWKHU DGPLQLVWUDWLYH UHTXLUHPHQWV DUH W\SLFDOO\ IRXQG LQ WKH
   2IILFH RI *HQHUDO &RXQVHO RU WKH ([HFXWLYH 6HFUHWDU\¶V RIILFH RI WKRVH DJHQFLHV 7KHVH
   RIILFHV WDNH WKH OHDG LQ SURGXFWLRQ RI UHJXODWLRQV LQ WKH RWKHU DJHQFLHV ZLWK LQSXW IURP WKH
   GLYLVLRQ PRVW YHUVHG LQ WKH VXEMHFW DUHD

 (YHQ WKRXJK DJHQF\ ERDUGV RI GLUHFWRUV DUH XOWLPDWHO\ UHVSRQVLEOH IRU WKH SURPXOJDWLRQ RI
   UHJXODWLRQV HDFK RI WKH DJHQFLHV H[SHULHQFHG D YDU\LQJ GHJUHH RI LQWHUHVW DQG LQYROYHPHQW LQ
   WKH GHYHORSPHQWDO VWDJHV RI UXOHPDNLQJ GHSHQGLQJ RQ WKH VXEMHFW DQG WKH LQGLYLGXDO ERDUG
   PHPEHU )XUWKHU WKH PHWKRGV RI UHYLHZ RI SURSRVHG UHJXODWLRQV XVXDOO\ FKDQJHG ZLWK HDFK
   QHZ DJHQF\ FKDLUSHUVRQ

 )&$ LV WKH RQO\ DJHQF\ WR KDYH XVHG QHJRWLDWHG UXOHPDNLQJ IDVW WUDFN DQG WRZQ PHHWLQJ
   WHFKQLTXHV LQ GHYHORSLQJ D UHJXODWLRQ



BBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBB
)&$¶V 5HJXODWLRQ 'HYHORSPHQW 3URFHVVHV                                             3DJH  RI 
 7KH RWKHU )HGHUDO ILQDQFLDO UHJXODWRUV KDYH RXWUHDFK SURJUDPV WR FXVWRPHUV 7KH\ FRQVLVW RI
   PRQWKO\ EUHDNIDVWV ZLWK FXVWRPHUV RU SHULRGLF VHPLQDUV ZKHUH YLVXDO DLGV DUH XVHG WR XSGDWH
   FXVWRPHUV RQ DQ LQQRYDWLRQ LQ WKH DUHD RI FRQVXPHU SURWHFWLRQ RU D FKDQJH LQ VWDWXV GXH WR
   OHJLVODWLRQ 'XULQJ WKHVH PHHWLQJV WKHUH LV WLPH DOORZHG IRU TXHVWLRQV DQG DQVZHUV WR FODULI\
   WKH PHDQLQJ RU LQWHUSUHWDWLRQ RI WKH UHJXODWLRQ RU SROLF\ DW LVVXH 7KH RWKHU UHJXODWRUV DOVR
   SXEOLVK SHULRGLF QHZVOHWWHUV WR LQIRUP UHJXODWHG LQVWLWXWLRQV DQG FRQVXPHUV RI QHZVZRUWK\
   LWHPV LQFOXGLQJ WKH LQLWLDWLRQ RI D UHJXODWLRQ SURMHFW DQG WKH VWDWXV RI RQJRLQJ SURMHFWV

 )&$ LV WKH RQO\ DJHQF\ URXWLQHO\ XVLQJ DQ\ W\SH RI WLPH WUDFNLQJ RU FRVW DQDO\VLV IRU
   UHJXODWLRQ
V GHYHORSPHQW DFWLYLW\

 )&$ DSSHDUV WR EH WKH PRVW DGYDQFHG LQ GHYHORSLQJ VSHFLILF SHUIRUPDQFH PHDVXUHV IRU
   UHJXODWLRQ GHYHORSPHQW IXQFWLRQV 6LQFH 1RYHPEHU  WKH SXEOLF FRPPHQW SDJH RI WKH
   )&$¶V ZHE SDJH KDV LQFOXGHG VL[ SHUIRUPDQFH PHDVXUHV VXUYH\ TXHVWLRQV IRU SXEOLF
   UHVSRQVH

 7KH WKUHH )HGHUDO ILQDQFLDO UHJXODWRUV ZH EHQFKPDUNHG SXEOLVK WKH *HQHUDO &RXQVHO¶V
   2SLQLRQV DV ZHOO DV VWDII RSLQLRQV LQ WKH )HGHUDO 5HJLVWHU DQG RQ WKHLU ZHE VLWH 0RUHRYHU
   GLUHFWLYHV DUH PRUH QXPHURXV WKDQ UHJXODWLRQV LQ RQH DJHQF\ 2IWHQ WKH UHJXODWRUV WDNH D
   WLHUHG DSSURDFK LQ HVWDEOLVKLQJ JXLGDQFH WR UHFRJQL]H WKH GLYHUVLW\ ZLWKLQ WKH UHJXODWHG
   FRUSRUDWH QHWZRUN

,QSXW IURP )&$ 6WDII

:H LQWHUYLHZHG QLQH VWDII PHPEHUV LQYROYHG LQ )&$¶V UHJXODWLRQ GHYHORSPHQW SURFHVV IURP WKH
53' DQG 2*& 0RVW RI WKH PHPEHUV EHOLHYH WKDW WKH TXDOLW\ RI ILQDO SURGXFWV LV YHU\ JRRG DQG
WKDW JXLGDQFH DQG GHFLVLRQV IURP WKH 5(* DUH ERWK SURPSW DQG UHVSRQVLYH WR QHHG KRZHYHU
VRPH H[SUHVVHG FRQFHUQ DERXW GHDGOLQHV DQG LQFUHDVLQJ UHSRUWLQJ DQG DGPLQLVWUDWLYH
UHTXLUHPHQWV 7KHUH ZDV DOVR D QRWHG WHQVLRQ EHWZHHQ 53' DQG 2*& VWDII RQ WKH LVVXH RI ZKR
ZDV UHVSRQVLEOH IRU PDNLQJ SROLF\ GHWHUPLQDWLRQV 6RPH EHOLHYHG WKLV WR EH D KHDOWK\ WHQVLRQ
RWKHUV EHOLHYHG LW WR EH D SRZHU VWUXJJOH

1HDUO\ DOO VWDII LQYROYHG LQ UHJXODWLRQ GHYHORSPHQW H[SUHVVHG WKH GHVLUH IRU HDUOLHU DQG PRUH
IUHTXHQW %RDUG LQYROYHPHQW LQ WKH SURFHVV DOWKRXJK WKH\ XQGHUVWRRG WKDW QRW DOO UHJXODWLRQV QHHG
RU FRPPDQG WKH VDPH %RDUG LQWHUHVW 7KHUH ZDV DOVR VRPH VWDII ZKR WKRXJKW WKH %RDUG VKRXOG
EH PDGH DZDUH RI DOO RSWLRQV FRQVLGHUHG E\ VWDII UDWKHU WKDQ MXVW WKH RQH UHFRPPHQGHG WR WKH
%RDUG

7KH 53' KDV LWV RZQ GDWDEDVH DFFHVVLEOH WR WKRVH LQYROYHG LQ WKH VSHFLILF UHJXODWLRQ XQGHU
GHYHORSPHQW 7KLV GDWDEDVH FRQWDLQV HPDLOV EHWZHHQ 5'7 PHPEHUV OHJDO PHPRUDQGD DFWLRQ
SODQV DQG RWKHU LQIRUPDWLRQ SHUWDLQLQJ WR D VSHFLILF UHJXODWLRQ XQGHU GHYHORSPHQW 7KLV GDWDEDVH
KDV EHHQ LQ RSHUDWLRQ VLQFH )HEUXDU\  ,Q 'HFHPEHU RI  DQG -DQXDU\  WKH )&$
%RDUG 0HPEHUV DQG WKHLU ([HFXWLYH $VVLVWDQWV ZHUH EULHIHG RQ WKH XVH RI WKH GDWDEDVH DQG
VXEVHTXHQWO\ SURYLGHG DFFHVV WR LW



BBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBB
)&$¶V 5HJXODWLRQ 'HYHORSPHQW 3URFHVVHV                                             3DJH  RI 
5(* PHHWLQJ PLQXWHV DUH NHSW LQ WKH 0HHWLQJ 0LQXWHV GDWDEDVH DYDLODEOH WR DOO )&$ HPSOR\HHV
$W WKH WLPH RI WKH ZULWLQJ RI WKLV UHSRUW RQO\ RQH VHW RI PLQXWHV IURP  ZDV DYDLODEOH RQ WKH
ILUVW GDWDEDVH VFUHHQ KRZHYHU WZHOYH VHWV PRVWO\  PLQXWHV ZHUH DUFKLYHG LQ WKH 2SHQ
$UFKLYH 'DWDEDVH 7KH %RDUG PHPEHUV DQG WKHLU ([HFXWLYH $VVLVWDQWV PD\ DFFHVV WKH
5HJXODWLRQ 'HYHORSPHQW GDWDEDVH DQG WKH 0HHWLQJ 0LQXWHV %RDUG GDWDEDVH $GGLWLRQDOO\
PHPEHUV DUH IUHH WR UHTXHVW D EULHILQJ RU LQIRUPDWLRQ H[FKDQJH DW DQ\ WLPH GXULQJ UHJXODWLRQ
GHYHORSPHQW

$Q HPSOR\HH IURP 53' RIIHUHG D VXJJHVWLRQ WR REWDLQ PRUH XVHU LQSXW RQ WKH XVHIXOQHVV DQG
FODULW\ RI H[LVWLQJ )&$ UHJXODWLRQV DV WKH\ DUH EHLQJ UHDG RU XVHG RQ OLQH $IWHU HYHU\ SURYLVLRQ
RU SDUW RI D UHJXODWLRQ WKHUH FRXOG EH DQ RSSRUWXQLW\ IRU DQ\RQH ZKR KDG MXVW XVHG WKH HOHFWURQLF
UHJXODWRU\ SURYLVLRQ WR LQWHUDFWLYHO\ FRPPHQW $ TXHVWLRQQDLUH FRXOG EH HVWDEOLVKHG RQOLQH WR
FDSWXUH WKH XVHU¶V DVVHVVPHQW RI WKHLU H[SHULHQFH LQ XVLQJ D VSHFLILF UHJXODWLRQ 7KH FRPSOHWHG
TXHVWLRQQDLUH FRXOG EH HPDLOHG WR )&$ DQG ZRXOG EH DYDLODEOH WR XVH LQ SULRULWL]LQJ DQ\
UHYLVLRQV WR WKH UHJXODWLRQ RU WR JLYH LQGLFDWLRQ RI WKH GHJUHH RI EXUGHQ H[SHULHQFHG RU WKH
QHFHVVLW\ RU FODULW\ RI WKH UHJXODWLRQ 7KH VXJJHVWLRQ KDV EHHQ DGYDQFHG WR 23$ PDQDJHPHQW
DQG LV XQGHU FRQVLGHUDWLRQ

6XPPDU\

)&$¶V UHJXODWLRQ GHYHORSPHQW DFWLYLWLHV FRPSDUH IDYRUDEO\ ZLWK WKRVH RI WKH RWKHU )HGHUDO
ILQDQFLDO UHJXODWRUV ZH XVHG DV EHQFKPDUNV $JHQF\ VWDII SDUWLFLSDWLQJ LQ WKH GHYHORSPHQW RI
UHJXODWLRQV SURYLGHG IDYRUDEOH IHHGEDFN DERXW )&$¶V LQWHUQDO SURFHVVHV DQG WKHLU UROH LQ WKDW
SURFHVV

7KH $JHQF\ 6WUDWHJLF 3ODQ LQFOXGHV LQLWLDWLYHV GLUHFWHG DW IXUWKHU LPSURYHPHQWV LQ UHJXODWLRQ
GHYHORSPHQW DFWLYLWLHV 7KH %RDUG PD\ ZLVK WR FRQVLGHU ZKHWKHU WKH IROORZLQJ PDWWHUV
LGHQWLILHG GXULQJ WKLV DXGLW ZRXOG FRPSOHPHQW WKRVH LQLWLDWLYHV WR VWUHDPOLQH WKH UXOHPDNLQJ
SURFHVV DQG SURGXFH UXOHV WKDW DUH PRUH ³XVHUIULHQGO\´

 :RXOG DQ HQKDQFHG RXWUHDFK SURJUDP SURYLGH XVHU LQIRUPDWLRQ WKDW FRXOG DVVLVW LQ PDNLQJ
   )&$¶V UHJXODWLRQV PRUH ³XVHU IULHQGO\"´ %RUURZHUV¶ ULJKWV LV DQ DUHD XQLTXH WR )&$ ZKLFK
   PD\ EH VXLWDEOH IRU IXUWKHU FRPPXQLFDWLRQ ZLWK FXVWRPHUV DQG FRQVXPHUV 6HH SDJH 
   QXPEHU 

 'RHV WKH )&$ %RDUG ZDQW WR IRUPDOO\ HQGRUVH SODLQ ODQJXDJH GUDIWLQJ WHFKQLTXHV" 7KLV
   DSSURDFK LV DGYDQFHG LQ WKH 1DWLRQDO 3HUIRUPDQFH 5HYLHZ 5HJXODWRU\ 5HLQYHQWLRQ ,QLWLDWLYH
   DV D PHWKRG WR GHFUHDVH FRQIXVLRQ LQDGYHUWHQW HUURUV UHGXFH WKH QHHG WR VHHN FODULILFDWLRQ
   WKURXJK SKRQH FDOOV RU FRUUHVSRQGHQFH DQG UHGXFH VWDII WLPH GHYRWHG WR JDLQLQJ
   XQGHUVWDQGLQJ RI UHJXODWLRQV E\ )&$ )DUP &UHGLW 6\VWHP RU RWKHU XVHUV" 7KH 53' DQG
   2*& DUH LQ WKH SURFHVV RI VHOHFWLQJ D YHQGRU WR SURYLGH WUDLQLQJ WR LPSURYH WKH ZULWLQJ RI
   UHJXODWLRQV DW )&$ 6HH SDJH  QXPEHU  DQG $SSHQGL[ 




BBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBB
)&$¶V 5HJXODWLRQ 'HYHORSPHQW 3URFHVVHV                                             3DJH  RI 
 6KRXOG WHFKQRORJLFDO DFFHVV EH H[WHQGHG RQ WKH $JHQF\¶V KRPHSDJH WR D SHUPLW FXVWRPHUV
   WR GRZQORDG )&$ UHJXODWLRQV E PDNH SXEOLF FRPPHQWV WR D SURSRVHG UHJXODWLRQ DYDLODEOH
   IRU UHYLHZ E\ RWKHU PHPEHUV RI WKH SXEOLF IRU D PRUH LQWHUDFWLYH UXOH PDNLQJ SURFHVV VHH
   SDJH  QXPEHU  DQG $SSHQGL[  DQG F HOLFLW LQWHUDFWLYH FRPPHQWV IURP XVHUV FRQFHUQLQJ
   WKH XVHIXOQHVV RI D UHJXODWLRQ VHH SDJH  ILUVW SDUDJUDSK" :RXOG LW EH PRUH XVHIXO WR WKH
   %RDUG PHPEHUV WR KDYH WKH 5(* PHHWLQJ PLQXWHV OLQNHG GLUHFWO\ WR WKH 5HJXODWLRQ
   'HYHORSPHQW GDWDEDVH"

5HVSHFWIXOO\



(OGRQ : 6WRHKU
,QVSHFWRU *HQHUDO



$SSHQGLFHV

      7KH (YROXWLRQ RI )&$¶V 2UJDQL]DWLRQ DQG 3UDFWLFHV IRU 'HYHORSLQJ 5HJXODWLRQV

      86 'HSDUWPHQW RI $JULFXOWXUH¶V $JULFXOWXUDO 0DUNHWLQJ 6HUYLFH 3URSRVHG 5XOH WR
       (VWDEOLVK D 1DWLRQDO 2UJDQLF 3URJUDP  ([SUHVVLRQ RI ,QWHQWLRQ WR +DYH $OO 3XELF
       &RPPHQWV 3XEOLVKHG RQ WKH :HE 3DJH

      ([DPSOH  1&8$ 5HJXODWLRQ 'UDIWHG LQ 3ODLQ /DQJXDJH

      0DQDJHPHQW¶V 5HVSRQVH




BBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBB
)&$¶V 5HJXODWLRQ 'HYHORSPHQW 3URFHVVHV                                             3DJH  RI 
